*4;

IN THE UNITED STATES SUPREME COURT
JOSEPH A. DIXON
Petitioner

Case Number:

v.

Florida Department of
Corrections, MARK S. INCH
And Respondents

“APPENDIX”

Joseph Augustus Dixon
DC# 120132
Marion Correctional Institution
P.O. Box 158
Lowell, FI. 32663

<

INDEX

PAGE

(11th) Eleventh Circuit Court of Appeals

“A”

“Rehearing Denial Order,” and denied Petitioner
initial F.R.C.P. 60(b) on dated February 19, 2021,
and Denial Order of Petitioner's Motion for “COA”
dated April 5, 2021;

U.S, District Court's Denial Order dated October 10, 2020

“B”

By Judge Thomas P. Barber

•-

2

*N.

•

OATH
UNDER THE PENALTIES OF PERJURY, I do swear that the facts and
•circumstances are true and correct, executed on _ 12th
Kafo v. U.S.. 467 F.3d 1063, 1054 (7th Cir. 2005).

day of August 2021.see -

/-

Joseph A. Dixon, DC# 120132

CERTIFICATE OF SERVTrE
I HEREBY CERTIFY that these Exhibits have been given to Florida
Department of Corrections officials to be U.S. mailed to the United States Supreme
Court, First Street N.E., Washington D.C., 20543-0002; and; Attorney General Ashley
Moody, The Capitol, PL-01, Tallahassee, Florida, 32399; and General Counsel for Mark
S. Inch, Secretary, Florida Dept, of Corrections, 501 S. Calhoun Street, Tallahassee,
Florida, 32399-2500 filed on this . 12th day of August. 2021. see, Ray v. Clements,
700 F.3d 993, N. [1] (7th Cir. 2012) (Mailbox rule).

C
Joseph Augustus Dixon, DC# 120132
Marion Correctional Institution
P.O. Box 158
Lowell, Florida, 32663 - 0158

3

‘ ?

USCA11 Case: 20-14308

Date Filed: 04/05/2021

Page:. 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-14308-C

JOSEPH AUGUSTUS DIXON,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF
CORRECTIONS,
ATTORNEY GENERAL, STATE OF
FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Joseph Dixon has filed

motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-1(c), of this Court’s February 19, 2021,
order denying a certificate of appealability and leave
to proceed on appeal in forma pauperis. Upon review, Dixon’s motion for reconsideration is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

\)

Case 8:l6-cv-00512-TPB-JSS Document 37

Filed 10/20/20 Page 1 of 4 PagelD 615

4 s

united states district court
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

JOSEPH A DIXON,
Applicant,
V.

CASE NO. 8:16-cv-612-T-60JSS
SECRETARY, Department of Corrections,
Respondent.

ORDER
Dixon applied under 28 U.S.C. § 2264 for the writ of habeas

corpus and
challenged his conviction for trafficking in cocaine. An earlier order (Doc. 8)
determined that Dixon’s application was i
untimely and directed Dixon to explain
(1) why the application was not untimely, (2) his
entitlement to a limitation under
another statutory provision, (3) his entitlement to
equitable tolling of the limitation,
or (4) his entitlement to the "actual innocence”
exception to the limitation. Based on
his responses and amended applications (Docs. 9 and 12-14), another order
dismissed the application as time-barred but with leave to re-open if Dixon could
show entitlement to a limitation under Section 2244(d)(1)(B),

which is a limitation

based on an impediment caused by an unlawful state action.
Dixon moved to re-open and, based on his content!
ons, the action was
re-opened; the respondent was directed to respond to the asserted entitlement

u

Case 8:16-cv-00512-TPB-JSS Document 37 Filed 10/20/20 Page 2 of 4 PagelD 616

both to a limitation under S ection 2244(d)(1)(B) and to equitable tolling. (Doc. 18)
A later order determined that both of Dixon's

contentions were invalid and closed

the action but with leave to re-open the case within thirty days if Di
ixon could "show
his entitlement to the actual innocence exception to the one-year limitation.”
(Doc. 26 at 6) Instead of attempting to show his actual mnn~.nre

as authorized in

that order, Dixon appealed. The circuit court declined to i
issue a certification of
appealability. (Doc. 33) Two weeks later Dixon files his pending motion (Doc. 34)
under Rule 60(b), Federal Rules of Civil Procedure, for relief from judgment, in
which he asserts entitlement to the “actual innocence”

exception to the limitation.

Dixon misrepresents that this motion is authorized by the provision in the
earlier order that allowed Dixon thirty days to re-open the case if he could "show his
entitlement to the actual innocence exception to the one-year limitation.” (Doc. 26
at 6) The authorization under that order expired after Dixon appealed instead of
moving to re-open to assert his actual innocence.
Nevertheless, the earlier timeliness determination is properly the subject of a
motion under Rule 60. Franqui v. Florida, 638 F.3d 1368 (11th Cir. 2011) (“[A]
60(b) motion can properly be used just to ‘assert that a previous ruling which
precluded a merits determination was in error1 or just to attack ‘some defect in the
integrity of the federal habeas proceedings”) (quoting Gonzalez v. Crosby, 646 U.S.
624, 632 (2006)), cert, denied, 666 U.S. 978 (2012). In his pending motion under
Rule 60(b), Dixon argues the merits of his underlying grounds for relief and
attempts to show how each ground shows his actual innocence. The initial

-2-

Case 8:16-cv-00512-TPB-JSS Document 37 Filed 10/20/20 Page 3 of 4 PagelD 617

dismissal order (Doc. 8 at 4) explains that the “actual innocence" exception to the
limitation requires proof of“factual innocence," specifically, that neV reliable
evidence that was not presented at trial is so strong that no reasonable juror would
find him guilty beyond a reasonable doubt. Disagreeing with,

or redarguing what

was presented at trial, does not qualify for the "actual innocence” exception to the
limitation.
Dixon's motion under Rule 60(b), Federal Rules of Civil Procedure, for relief
from a final order or judgment (Doc. 34) is DENIED.

DENIAL OF BOTH
A CERTIFICATE OF APPEAT.ARTT.rrv
AND LEAVE TO APPEAL Iff FORMA pa TTPfnfTo
Dixon is not entitled to a certificate of appealability (“COA”). Under Section
2263(c)(1), a prisoner seeking a writ of habeas corpus has no absolute entitlement to
appeal a district court's denial of his application. Rather, a district court must first
issue a COA. Section 2253(c)(2) permits issuing a COA “only if the applicant has
made a substantial showing of the denial of a constitutional right ” To merit a
COA, Dixon must show that reasonable jurists would find debatable both the merits
of the underlying claims and the procedural issues he seeks to raise. See28U.S.C.
§ 2263(c)(2); Slack v. McDaniel, 629 U.S. 473, 478 (2000); Eagle v. Linahan, 279
F.3d 926, 936 (11th Cir 2001). Because he fails to show that reasonable jurists
would debate either the merits of the claims or the procedural issues, Dixon is
entitled to neither a COA nor leave to appeal in forma pauperis.

-3-

Case 8:16-cv-00512-TPB-JSS Document 37 Filed 10/20/20 Page4of4PagelD 618
,'w

A certificate of appealability is DENIED. Leave to.appeal in formapauperis
is DENIED. Dixon must obtain permission from the circuit court to appeal in
formapauperis.
ORDERED in Tampa, Florida, on

jolu? * mo.

THOMAS P, BARBER
UNITED STATES DISTRICT JUDGE

-4-

